     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
December 13, 2011


Report Number: A-04-11-07020

Ms. Elizabeth Dudek
Secretary
Florida Agency for Healthcare Administration
2727 Mahan Drive, MS#1
Tallahassee, FL 32308

Dear Ms. Dudek:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments to Excluded or Terminated
Durable Medical Equipment Suppliers in Florida. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise R. Novak, Audit Manager, at (305) 536-5309, extension 10, or through email at
Denise.Novak@oig.hhs.gov. Please refer to report number A-04-11-07020 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Elizabeth Dudek


cc: 	   Mary Beth Sheffield
        Audit Director, Office of the Inspector General
        Florida Agency for Healthcare Administration
        2727 Mahan Drive, MS#5
        Tallahassee, FL 32308

Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





     REVIEW OF MEDICAID

   PAYMENTS TO EXCLUDED OR 

 TERMINATED DURABLE MEDICAL 

EQUIPMENT SUPPLIERS IN FLORIDA





                        Daniel R. Levinson

                         Inspector General 


                          December 2011

                          A-04-11-07020 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                 EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administer the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage for
claimed Medicaid expenditures, including Medicaid expenditures for items and services
furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.

In Florida, the Agency for Health Care Administration (State agency) is the single State agency
designated to administer the Florida Medicaid program.  The Medicaid program in Florida
reimbursed durable medical equipment (DME) suppliers approximately $120 million in calendar
year 2009.

The U.S. Department of Health and Human Services, Office of Inspector General, under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. The effect of an
exclusion (not being able to participate) is that no payment will be made by the Medicare or
Medicaid programs for any items and services furnished, ordered, or prescribed by an excluded
individual or entity.

CMS established the National Supplier Clearinghouse (Clearinghouse), which is responsible for
enrolling suppliers in Medicare, issuing all DME supplier numbers nationwide, and ensuring that
suppliers comply with federally mandated supplier standards. The Clearinghouse can revoke a
supplier number for failure to comply with these federally mandated supplier standards. A
supplier with a revoked supplier number is automatically considered terminated from the
Medicare program, and Florida law prohibits Medicaid payments to suppliers terminated from
the Medicare program.

OBJECTIVE

Our objective was to determine whether the State agency made payments to DME suppliers that
had been excluded or terminated from the Medicare or Medicaid programs for calendar year
2009.

SUMMARY OF FINDINGS

The State agency did not make payments to DME suppliers that had been excluded from the
Medicare or Medicaid programs. However, it made payments totaling $230,992 ($127,407
Federal share) to 31 DME suppliers that were terminated from the Medicare program during
                                               i
 
2009. The State agency made improper payments to these 31 suppliers because it did not have
procedures to validate DME suppliers’ billing privileges through the Clearinghouse to ensure
that they were not terminated from the Medicare program.

RECOMMENDATIONS

We recommend that the State agency:

    	 refund $127,407 to the Federal Government for the improper Medicaid payments made to
       terminated DME suppliers and

    	 improve controls to ensure that the State agency validates DME suppliers’ billing 

       privileges before paying them.
  

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
provided information on actions that it planned to take to address them. The State agency’s
comments are included in their entirety as the Appendix.




                                                ii
 
                                                 TABLE OF CONTENTS


                                                                                                                                           Page

INTRODUCTION                 ................................................................................................................ 1   


        BACKGROUND ...........................................................................................................               1        

            Medicaid Program..............................................................................................                   1        

            State of Florida Medicaid Program....................................................................                            1

            Federal and State Criteria...................................................................................                    1        


        OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                          2

             Objective ............................................................................................................          2        

             Scope ................................................................................................................          3        

             Methodology ......................................................................................................              3        


FINDINGS AND RECOMMENDATIONS .......................................................................... 4 


        FEDERAL AND STATE REQUIREMENTS............................................................... 4 


        IMPROPER PAYMENTS MADE TO TERMINATED PROVIDERS........................ 5 


        NO PROCEDURES TO IDENTIFY TERMINATED PROVIDERS ........................... 5 


        RECOMMENDATIONS ............................................................................................... 5                             


        STATE AGENCY COMMENTS.................................................................................. 5 


APPENDIX

        STATE AGENCY COMMENTS




                                                                    iii
 
                                        INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

CMS reimburses State Medicaid agencies based on the Federal medical assistance percentage
(FMAP) for claimed Medicaid expenditures, including Medicaid expenditures for items and
services furnished, ordered, or prescribed by providers enrolled in the State’s Medicaid program.
The FMAP during our audit period was approximately 55 percent.

State of Florida Medicaid Program

In Florida, the Agency for Health Care Administration (State agency) is responsible for
administering the Medicaid program. The State agency contracts with HP Enterprise Services
(formerly Electronic Data Systems) to maintain its Medicaid Management Information System, a
computerized payment and information reporting system that processes and pays Medicaid
claims. The Medicaid program in Florida reimbursed durable medical equipment (DME)
suppliers approximately $120 million in calendar year (CY) 2009.

Federal and State Criteria

Federal Criteria - Excluded Providers

The U.S. Department of Health and Human Services, Office of Inspector General (OIG), under
Congressional mandate, established a program to exclude individuals and entities affected by
various legal authorities contained in sections 1128 and 1128A of the Act. Medicare and
Medicaid will not pay excluded individuals and entities for any items or services furnished,
ordered, or prescribed. The exclusion applies regardless of who submits the claims and applies
to all administrative and management services furnished by the excluded entity.

To administer this exclusion program, OIG maintains a database of all currently excluded parties
called the List of Excluded Individuals/Entities (LEIE). This database provides information
about parties excluded from participation in Medicare, Medicaid, and all other Federal health
care programs. In addition, CMS maintains a database called the Medicare Exclusion Database
(MED). CMS developed the MED in 2002 to collect and retrieve information that aided in
ensuring that no payments were made to excluded individuals or entities for services furnished
during the exclusion period. CMS provides the MED files to State Medicaid agencies every


                                                1

 
month. Pursuant to a CMS State Medicaid Directors Letter, dated June 12, 2008, States should
conduct monthly searches via the LEIE or the MED to capture exclusions and reinstatements that
have occurred since the previous search. The State agency uses the LEIE and the MED to
determine which providers have been excluded from the Medicare or Medicaid programs.

Federal Criteria - Terminated Providers

The National Supplier Clearinghouse (Clearinghouse), which CMS established in 1993 by
contract, is responsible for enrolling suppliers in Medicare, issuing all DME supplier numbers
nationwide, and ensuring that suppliers comply with federally mandated supplier standards. The
Clearinghouse can revoke Medicare DME supplier numbers for failure to comply with 1 or more
of the 26 federally mandated supplier standards.1 According to the Medicare Program Integrity
Manual (the manual), chapter 15, section 1.1, “Revoke/revocation means that the provider [sic]
or supplier’s billing privileges are terminated.” Therefore, revoked providers are considered
terminated from the Medicare program during the time of revocation.

Office of Management and Budget (OMB) Circular A-87, attachment A, section C.1.c, provides
that, to be allowable, costs must be “authorized or not prohibited under State or local laws or
regulations.” Thus, Medicaid costs incurred by Florida are not allowable (and, therefore, not
federally reimbursable) if the costs are prohibited under Florida law.

State Criteria – Terminated Providers

Section 409.913 of the Florida Statutes also provides grounds for administrative sanctions
against Medicaid DME suppliers that fail to meet standards required by Federal law and
regulations. These sanctions include suspension or termination of the Medicaid DME suppliers
from the program. Specifically, the State agency “shall deny payment, or require repayment, if
the goods or services were furnished, supervised, or caused to be furnished by a person2 who has
been suspended or terminated from the Medicaid or Medicare programs by the Federal
Government or any State” and shall not enroll such provider in the Florida Medicaid program
while such suspension or termination remains in effect. 

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made payments to DME suppliers that
had been excluded or terminated from the Medicare or Medicaid programs for CY 2009.




                                                            
1
     On January 1, 2009, Medicare had 25 DME supplier standards; it added a 26th standard on October 1, 2009.  
2
  Pursuant to 409.913(1)(f) of the Florida Statutes, the term “person” means any natural person, corporation,
partnership, association, clinic, group, or other entity, whether or not such person is enrolled in the Medicaid
program or is a provider of health care.  

                                                               2

 
Scope

Our audit covered all Medicaid DME suppliers that the State agency had reimbursed during CY
2009. The State agency paid $119.8 million to 3,880 DME suppliers.

We limited our review to DME suppliers that had received payment from Medicaid during CY
2009. We did not review the overall internal control structure of the State agency or the
Medicaid or Medicare programs because our objective did not require us to do so. Instead, we
reviewed only the State agency internal controls that pertained to our objective.

Methodology

To accomplish our objective, we:

       	 reviewed applicable Federal and State laws, regulations, and guidance;

       	 interviewed State agency officials to understand its policies, procedures, guidance, and
          methodology for preventing payments to excluded or terminated DME suppliers;

       	 obtained the list of Medicaid DME suppliers that received Medicaid reimbursements
          (State agency’s file) during the audit period;

       	 obtained the MED3 from CMS as of December 31, 2009, and compared it to the State
          agency’s file using the suppliers’ social security numbers (SSNs), National Provider
          Identifiers (NPIs), business names, or addresses to determine whether the State agency
          made Medicaid payments to excluded suppliers;

       	 obtained the list of terminated suppliers from the Clearinghouse as of December 31,
          2009, and:

                      o	 compared it to the State agency’s file using NPIs, Tax Identification Numbers,
                         business names, and addresses to determine whether the State made Medicaid
                         payments to terminated suppliers;

                      o	 requested claims information from the State agency for those terminated suppliers
                         identified as having received Medicaid payments; and

                      o	 calculated the total payments that were made during each supplier’s period of
                         termination; and

       	 calculated the Federal share of the expenditures using the lowest FMAP (54.98 to 55.4
          percent) applicable for each quarter.


                                                            
3
     We used the MED in our analysis because it contained unique identifiers, such as SSNs or NPIs.


                                                               3

 
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not make payments to DME suppliers that had been excluded from the
Medicare or Medicaid programs. However, it paid $230,992 ($127,407 Federal share) to 31
DME suppliers that were terminated from the Medicare program during 2009. The State agency
made improper payments to these 31 suppliers because it did not have procedures to validate
DME suppliers’ billing privileges through the Clearinghouse to ensure that they were not
terminated from the Medicare program.

FEDERAL AND STATE REQUIREMENTS

Federal regulations (42 CFR § 424.57) outline 26 Medicare standards to which all DME
suppliers must adhere to participate in the Medicare program. Through the Clearinghouse, CMS
will revoke a supplier’s billing privileges if it is found not to meet these standards. According to
the manual, chapter 15, section 1.1, “Revoke/revocation means that the provider [sic] or
supplier’s billing privileges are terminated.” Therefore, revoked suppliers are deemed
terminated from the Medicare program during the time of revocation.  

Florida law prohibits Medicaid payments for items furnished by suppliers that have been
terminated from the Medicare program by the Federal government.  Section 409.913 (14) of the
Florida Statutes provides that: 

       If the provider has been suspended or terminated from participation in the
       Medicaid program or the Medicare program by the Federal Government or any
       state, the agency must immediately suspend or terminate, as appropriate, the
       provider’s participation in this state’s Medicaid program for a period no less than
       that imposed by the Federal Government or any other state, and may not enroll
       such provider in this state’s Medicaid program while such foreign suspension or
       termination remains in effect.

Furthermore, section 409.913(25)(b) of the Florida Statutes provides that “[t]he agency
shall deny payment, or require repayment, if the goods or services were furnished,
supervised, or caused to be furnished by a person who has been suspended or terminated
from the Medicaid program or Medicare program by the Federal Government or any
state.”

OMB Circular A-87, attachment A, section C.1.c, provides that to be allowable, costs must be
“authorized or not prohibited under State or local laws or regulations.” Thus, Medicaid costs
incurred by Florida are not allowable (and, therefore, not federally reimbursable) if the costs are
prohibited under Florida law.


                                                 4

 
IMPROPER PAYMENTS MADE TO TERMINATED PROVIDERS

The State agency did not make improper payments to DME suppliers that had been excluded
from the Medicare or Medicaid programs. However, it made improper payments totaling
$230,992 ($127,407 Federal share) to 31 DME suppliers that the Clearinghouse had terminated
from the Medicare program during 2009. The Clearinghouse had revoked 31 DME suppliers’
billing privileges, and, thus, these providers were deemed terminated from the Medicare program
and should not have received payment.

NO PROCEDURES TO IDENTIFY TERMINATED PROVIDERS

Although the State agency had policies and procedures to identify excluded DME providers,
which included conducting a search of the LEIE, it did not have controls to ensure that improper
payments were not made to terminated DME suppliers. Specifically, the State agency did not
have procedures to validate DME suppliers’ billing privileges through the Clearinghouse to
verify that they were not terminated from the Medicare program.

As a result, it improperly paid $230,992 ($127,407 Federal share) to 31 DME suppliers that the
Clearinghouse had terminated from the Medicare program during 2009.

RECOMMENDATIONS

We recommend that the State agency:

    	 refund $127,407 to the Federal Government for the improper Medicaid payments made to
       terminated DME suppliers and

    	 improve controls to ensure that the State agency validates DME suppliers’ billing 

       privileges before paying them.


STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
provided information on actions that it planned to take to address them. The State agency’s
comments are included in their entirety as the Appendix.




                                                5

 
    APPENDIX 

 




 
                    APPENDIX: STATE AGENCY COMMENTS
	                                          Page 1 of 2




   RICKscon
   GOVERNOR
                                   -iN 1CA
                                   flORIDA AGENCY FOR HEAl.TH CAAE ADMINISTRATION

                                  Better Health Care for all Floridians
                                                                                        ELIZABETH DUDEK
                                                                                           SECRETARY



                                                    November 8, 2011



Ms. Lori S. Pilcher
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Dear Ms. Pilcher:

Thank you for your letter of October 19, 2011, requesting us to provide comments on the draft
report number A-04-11-07020, Review of Medicaid Payments to Excluded or Terminated DME
Suppliers in Florida. In accordance with your request, we have mailed you a paper copy of our
response and we also sent our response by email.

If you have any questions regarding our response, please contact Mary 8eth Sheffield, Audit
Director, at 850-412-3978.


                                                    SincereIY'?t-           ~


                                                   Elizabeth Dudek
                                                   Secretary

EDlszg
Enclosure




 2727 Mahan Drive. Mail Stop #1                                                      Vis it AHCA online at
 Talla hassee, FL 3 2308                                                            AHCA .MyFlorida . com
                                                                                                                                          Page 2 of 2

Florida Agency for Health Care Administration
Report# A-04-11-07020
Review of Medicaid Payments to Excluded or Terminated DME Suppliers in Florida
Response to HHS OIG’s Request for Written Comments on the Draft Report


            Findings                         Recommendations                   State Agency Response      Estimated Corrective
                                                                               and Corrective Action Plan Action Date and Agency
                                                                                                          Contact
The State agency did not make           (1) Refund $127,407 to the             We concur with this finding. The         March 1, 2012
payments to DME suppliers that          Federal Government for the             Agency will initiate recoupment
had been excluded from the              improper Medicaid payments             activities on the 31 providers           Mike Blackburn
Medicare or Medicaid programs.          made to terminated DME                 identified during the audit. The         (850) 412- 3977
However, it made payments               suppliers and                          Agency will also implement
totaling $230,992 ($127,407                                                    processes to identify DME
Federal share) to 31 DME                (2) Improve controls to ensure that    providers terminated by CMS and
suppliers that were terminated          the State agency validates DME         take appropriate action. Over the
from the Medicare program during        suppliers’ billing privileges before   past year, our MPI field offices
2009. The State agency made             paying them.                           have reviewed the weekly
improper payments to these 31                                                  terminations list to try and identify
suppliers because it did not have                                              terminated DME providers in their
procedures to validate DME                                                     area. However, with only a
suppliers’ billing privileges through                                          business name and city/state data
the Clearinghouse to ensure that                                               to go on, locating the providers
they were not terminated from the                                              has proven difficult. If staff is able
Medicare program.                                                              to confirm that the business
                                                                               identified on the termination list is
                                                                               an active Medicaid provider, then
                                                                               payment review actions would be
                                                                               initiated. The state is currently
                                                                               working with CMS to identify a
                                                                               database that contains sufficient
                                                                               identifying information to enable
                                                                               the application of administrative
                                                                               action.
